DEPARTMENT OF HOMELAND SECURITY
       Office of Inspector General

        Technical Security Evaluation of 

       U.S. Customs and Border Protection 

                 Activities at the 

         Chet Holifield Federal Building

                   (Redacted)





  Notice: The Department of Homeland Security, Office of Inspector General, has redacted
  this report for public release. A review under the Freedom of Information Act will be
  conducted upon request.




OIG-08-37                                                                     April 2008
                                                         Office of Inspector General

                                                         U.S. Department of Homeland Security
                                                         Washington, DC 20528




                                      April 8, 2008


                                     Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

Our report addresses the strengths and weaknesses of the implementation of technical and
information security policies and procedures at U.S. Customs and Border Protection
locations at the Chet Holifield Federal Building, Laguna Niguel, California. It is based
on interviews with employees and officials of relevant agencies and institutions, direct
observations, and reviews of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is
our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the
preparation of this report.




                                     Richard L. Skinner 

                                     Inspector General 





.
Table of Contents/Abbreviations 



Executive Summary ............................................................................................................ 1 


Background ......................................................................................................................... 2 


Results of Review ............................................................................................................... 4



      Systems Did Not Comply Fully With DHS Operational Control Requirements ........ 4 

      Recommendations ....................................................................................................... 7 

      Management Comments and OIG Analysis................................................................ 8 


      Systems Did Not Comply Fully With DHS Technical Control Requirements ........... 9 

      Recommendations ................................................................................................ .... 11 

      Management Comments and OIG Analysis.............................................................. 11 


      Systems Did Not Comply Fully With DHS Management Control Requirements .... 12 

      Recommendations ..................................................................................................... 17 

      Management Comments and OIG Analysis.............................................................. 17 


Appendices
Appendix A:          Purpose, Scope, and Methodology............................................................. 20 

Appendix B:          Management Comments to Draft Report ................................................... 22 

Appendix C:          Major Contributors to This Report............................................................. 26 

Appendix D:          Report Distribution..................................................................................... 27 


Abbreviations
     CBP                                    U.S. Customs and Border Protection       

     CHFB                                   Chet Holifield Federal Building    

     CIO                                    Chief Information Officer 

     CISO                                   Chief Information Security Officer     

     DAA                                    Designated Accrediting Authority     

     DHS                                    Department of Homeland Security       

     DHS Directive 4300A                    DHS Sensitive Systems Policy Directive 4300A 

     DHS 4300A Handbook                     DHS 4300A Sensitive Systems Handbook 

     FISMA                                  Federal Information Security Management Act    

     HVAC                                   Heating, Ventilation, and Air Conditioning   

     ICE                                    Immigration and Customs Enforcement        

     ISA                                    Interconnection Security Agreement       

     IT                                     Information Technology      

     LAN                                    Local Area Network 

     OIG                                    Office of Inspector General    



.
Table of Contents/Abbreviations 



    PIA         Privacy Impact Assessment
    PII         Personally Identifiable Information
    PTA         Privacy Threshold Analysis
    SORN        System of Records Notice
    SSH         Secure Shell
    TA-FISMA    Trusted Agent FISMA
    USCIS       United States Citizenship and Immigration Services




.
OIG

Department of Homeland Security
Office of Inspector General


Executive Summary
                     We initiated a program to determine the extent to which critical
                     Department of Homeland Security sites comply with the
                     department’s technical and information security policies and
                     procedures. Based on our internal analysis, we selected the Chet
                     Holifield Federal Building located in Laguna Niguel, California
                     where the U.S. Customs and Border Protection’s Southern
                     California field support and Human Resources Management staffs
                     are located.

                     Our evaluation focused on how Customs and Border Protection has
                     implemented computer security operational, technical, and
                     management controls for its information technology resources at
                     this site. We performed onsite inspections of the areas where these
                     resources were located, interviewed departmental staff, and
                     conducted technical tests of internal controls, e.g., scans for
                     wireless networks. We also reviewed applicable departmental
                     policies, procedures, and other appropriate documentation.

                     The information technology security controls implemented at this
                     site have deficiencies that, if exploited, could result in the loss of
                     confidentiality, integrity, and availability of information
                     technology systems. Specifically, Customs and Border Protection
                     needs to improve its environmental, business continuity, and
                     physical security controls for its computer room and
                     telecommunications closets. Customs and Border Protection could
                     also improve its technical controls at this site

                     Additionally, management controls could be improved at this site
                     by implementing effective capital planning and investment control
                     procedures and by completing all required system accreditation
                     activities.




       Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                             the Chet Holifield Federal Building

                                            Page 1
Background
                   We designed our Technical Security Evaluation Program to
                   provide senior Department of Homeland Security (DHS) officials
                   with timely information on whether they had properly
                   implemented DHS information technology (IT) security policies at
                   critical sites. Our program is based on DHS Sensitive Systems
                   Policy Directive 4300A (DHS Directive 4300A), which applies to
                   all DHS components and provides direction to managers and
                   senior executives regarding the management and protection of
                   sensitive systems. DHS Directive 4300A also outlines policies
                   relating to the operational, technical, and management controls that
                   are necessary for ensuring confidentiality, integrity, availability,
                   authenticity, and non-repudiation within the DHS IT infrastructure
                   and operations. A companion document—the DHS 4300A
                   Sensitive Systems Handbook (DHS 4300A Handbook) —provides
                   detailed guidance on the implementation of these policies and
                   DHS IT security policies are organized under operational,
                   technical, and management controls as follows:

                           •	 Operational Controls – Focus on mechanisms
                              primarily implemented and executed by people. These
                              controls are designed to improve the security of a
                              particular system, or group of systems. These controls
                              require technical or specialized expertise and often rely
                              on management and technical controls.

                                                       **********

                           •	 Technical Controls – Focus on security controls
                              executed by IT systems. These controls provide
                              automated protection from unauthorized access or
                              misuse. They facilitate detection of security violations,
                              and support security requirements for applications and
                              data.

                                                       **********

                           •	 Management Controls – Focus on managing both the
                              IT security system and system risk. These controls
                              consist of risk mitigation techniques and concerns
                              normally addressed by management.




     Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                           the Chet Holifield Federal Building

                                          Page 2
              Based on our internal analysis, we selected the Chet Holifield
              Federal Building (CHFB) located in Laguna Niguel, California,
              where U.S. Customs and Border Protection’s (CBP) Southern
              California field support and Human Resources Management staffs
              are located. The United States Citizenship and Immigration
              Services (USCIS) and United States Immigration and Customs
              Enforcement (ICE) also operated in this facility, and their activities
              will be addressed in separate evaluation reports.

              CBP operates a server/telecommunications room at CHFB and
              relies on telecommunications lines concentrated in two additional
              telecommunications closets that are shared with ICE.
              Additionally, CBP relies on servers and routers operated by ICE in
              a separate server/telecommunications room. Operational and
              technical control weaknesses associated with these servers and
              routers operated by ICE, but used by CBP, will be reported
              separately in the ICE specific evaluation report.




Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                      the Chet Holifield Federal Building

                                     Page 3
Results of Review

     Systems Did Not Comply Fully With DHS Operational
     Control Requirements
                     Some operational controls that CBP implemented at CHFB did not
                     always conform to DHS policies; these included environmental,
                     business continuity, and physical security controls. The
                     environmental and business continuity deficiencies are particularly
                     significant and place CBP at risk of being unable to access IT
                     assets and data at this site when necessary. Collectively, these
                     deficiencies could place at risk the confidentiality, integrity, and
                     availability of the data stored, transmitted, and processed by CBP
                     at CHFB.

                     Environmental Controls

                     The air conditioning unit in the CBP server/telecommunications
                     room may be inadequate. While the air conditioning unit was set
                     to cool the room to 67 degrees, the room temperature was
                     71 degrees during our visit in February 2007. See Figure 1 below.




                                Figure 1: Air Conditioner Temperature Display




       Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                             the Chet Holifield Federal Building

                                            Page 4
              According to the DHS 4300A Handbook:

                      Temperatures in computer storage areas should be held
                      between 60 and 70 degrees Fahrenheit.

              The absence of adequate heating, ventilation, and air
              conditioning (HVAC) capabilities for IT equipment increases the
              risk that CBP’s IT assets may malfunction.

              Following discussions, CBP staff informed us that this HVAC unit
              was a temporary solution. Further, the Information Systems
              Security Officer for the Far West Field Local Area Network (LAN)
              requested that CBP perform a risk assessment at the CHFB. One
              of the results of the risk assessment will be the identification of the
              proper HVAC capabilities necessary for the CBP IT resources at
              CHFB.

              Business Continuity

              CBP’s business continuity capability needs to be strengthened at
              CHFB. Although CBP had an uninterruptible power supply for the
              CBP IT assets in the server room, officials reported that the
              capacity of the device is minimal and will only allow the server to
              power-off. CBP does not have a backup electrical generator to
              support the server room. Furthermore, CBP’s electronic
              equipment may be at risk of damage or malfunction due to the lack
              of an emergency shut-off switch. Without an emergency shut-off
              switch, the IT resources that are still receiving power when the
              sprinklers are activated are at increased risk of a short circuit
              during a fire.

              According to the DHS 4300A Handbook:

                      DHS must have the capability to ensure continuity of
                      essential functions under all circumstances.

              Physical Security Controls

              The CBP server room has several boxes stored around the air
              conditioning unit. See Figure 2 below. This increases the risk that
              CBP’s IT assets may inadvertently lose power or be accidentally
              damaged. CBP could also better protect its IT assets from damage




Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                      the Chet Holifield Federal Building

                                     Page 5
              by ensuring that the immediate areas in the server room are not
              used for general storage.




                  Figure 2: Air Conditioner and Storage in CBP Server Room

              According to the DHS 4300A Handbook:

                      Controls for deterring, detecting, restricting, and
                      regulating access to sensitive areas shall be in place and
                      will be sufficient to safeguard against possible loss, theft,
                      destruction, damage, hazardous conditions, fire, malicious
                      actions, and natural disasters.

              CBP staff informed us that this storage was a temporary
              arrangement and they have removed these boxes from their server
              room.

              CBP is also not in compliance with its own security guidelines for
              IT resources. Specifically, in a room shared with ICE, there is a
              CBP server stored in a locked cabinet and CBP
              telecommunications assets sharing one of two telecommunications
              racks with ICE equipment. See Figures 3 and 4 below.
              Additionally, during our onsite visit, CBP officials had difficulty
              gaining access to a second room containing CBP
              telecommunication assets. CBP staff had to contact ICE for entry
              to this room.




Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                      the Chet Holifield Federal Building

                                     Page 6
               Figure 3: Shared                   Figure 4: CBP-Operated Server
               Telecommunications Rack

               According to CBP’s Information Systems Security Policies and
               Procedures Handbook, CIS HB 1400-05C, Section 5.3.1:

                       Rooms containing information systems hardware and
                       software, such as Local Area Network (LAN) rooms or
                       telephone closets, must be secured and accessible by
                       authorized CBP personnel only.

               During discussions, staff from the office of the DHS Chief
               Information Security Officer (CISO) suggested that CBP review
               their security guidelines. CBP is now in the process of reviewing
               and updating their security policies to allow sharing facilities with
               authorized DHS components.

Recommendations:
               We recommend that the CBP Chief Information Officer (CIO) take
               the following actions for CBP activities at CHFB:

               Recommendation #1: Implement stronger physical security and
               environmental controls to protect CBP’s IT assets from possible
               destruction, accidental damage, hazardous conditions, fire,
               malicious actions, and natural disasters.

               Recommendation #2: Implement business continuity of
               operations capability for CBP facilities at CHFB,




 Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                       the Chet Holifield Federal Building

                                      Page 7
Management Comments and OIG Analysis
               We obtained written comments on a draft of this report from the
               CBP Office of Policy and Planning. We have included a copy of
               the comments in their entirety at Appendix B.

               In the comments, CBP concurred with findings and
               recommendations one and two in our report. Specifically, CBP has
               updated policy and taken several steps towards improving physical
               and environmental security of IT at CHFB. Recommendation one
               will be considered resolved but open pending verification of all
               planned actions.

               As stated above, CBP has concurred with recommendation two. In
               its comments, CBP stated that the IT contingency plan has been
               provided for updating the CHFB Continuity of Operations Plan.
               CBP is also working to provide an emergency backup electrical
               generator and an emergency shut-off switch to support its server
               room.
                              Therefore, recommendation two will be considered
               resolved but open pending verification of all planned actions.




 Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                       the Chet Holifield Federal Building

                                      Page 8
        Systems Did Not Comply Fully With DHS Technical
        Control Requirements
                          CBP’s implementation of technical controls did not conform to
                          DHS policies involving configuration management of CBP’s
                          server and router. These deficiencies increase the risk that CBP IT
                          systems used at CHFB are vulnerable to internal attacks.

                          Server Configuration Management

                          CBP’s server was not properly configured to prevent an “insider”
                          from gaining unauthorized privileges and information. 1 For
                          example, the following services with known vulnerabilities were
                          enabled or provided unnecessary information to anonymous
                          requests:

                              •	 Blah11 (1042/tcp) – Our scan reported that Blah11 was
                                 implemented. This scan report needs to be investigated
                                 further to determine whether it was an incorrect report or if
                                 a known Trojan horse is operating on this host. 2




1
  According to the National Institute of Standards and Technology’s Threat Assessment of Malicious Code

and Human Threats (NISTIR 4939), “Insiders are legitimate users of a system. When they use that access

to circumvent security, that is known as an insider attack.”

2
  According to the DHS 4300 Handbook: 


        A Trojan horse is a computer program that is apparently or actually useful but performs another
        function. A Trojan horse generally provides remote control access to an unauthorized person. A
        Trojan horse can be used to modify databases, write checks, send e-mail, or destroy files. It could
        be imbedded by a programmer or downloaded from the Internet.



            Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                                  the Chet Holifield Federal Building

                                                 Page 9
              According to DHS Directive 4300A:

                      Components shall manage systems to reduce vulnerabilities
                      through vulnerability testing, promptly installing patches,
                      and eliminating or disabling unnecessary services, if
                      possible.

              Following presentation of these scans, CBP performed further
              research and determined that Blah11 was falsely reported, as it was
              not installed on their system. Further, CBP is evaluating the need
              for port 1042/tcp.

              Router Configuration Management Controls

              CBP’s router at CHFB was not properly configured to prevent an
              “insider” from gaining unauthorized privileges and information




              As a result of our scans, CBP officials began to reevaluate their
              policy for internal routers and their associated open/unfiltered
              ports. CBP is currently evaluating an updated security profile for
              several of the ports and accessible services.


                                                                 This may allow
              an attacker to capture login credentials and remotely take control
              of the router and change or delete configuration files.

              According to DHS Directive 4300A:

                      A connection protocol such as Secure Shell (SSH) that
                      employs secure authentication (two factor, encrypted, key



Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                      the Chet Holifield Federal Building

                                    Page 10
                       exchange, etc.) and is approved by the Component shall be
                       used instead.

               CBP has informed us that        will be disabled and SSH will be
               implemented after the entire CBP component is migrated to the
               DHS OneNet. The date for this is November 2, 2007.

Recommendations:
               We recommend that the CBP CIO take the following actions for
               CBP activities at CHFB:

               Recommendation #3: Use a connection protocol that employs
               secure authentication.

               Recommendation #4: Eliminate or disable unnecessary services
               from the server and router.

Management Comments and OIG Analysis

               In the comments, CBP concurred with these two recommendations
               and also reported steps that it plans to take to resolve these issues.
               These recommendations will be considered resolved but open
               pending verification of reported actions.




 Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                       the Chet Holifield Federal Building

                                     Page 11
        Systems Did Not Comply Fully With DHS Management
        Control Requirements
                         CBP’s implementation of management controls at CHFB did not
                         conform to DHS policies. Specifically, there are deficiencies in
                         capital planning and investment controls, system accreditation,
                         establishment of interconnection security agreements (ISA), and
                         privacy compliance activities related to personal information 3
                         These management control deficiencies increase the risk to CBP’s
                         IT investments, systems, and data from new threats and
                         vulnerabilities for which safeguards have not been implemented.

                         Capital Planning and Investment Control

                         CBP did not adequately consider shared infrastructure when it
                         installed a new server room and telecommunications lines at
                         CHFB. 4 Specifically, CBP did not perform a formal analysis of
                         the benefits of using the DHS operated, shared server room in
                         CHFB Use of this shared infrastructure would also support the
                         department’s commitment to functional integration. CBP cannot
                         be certain that the approach it has adopted is the most cost
                         effective solution.

                         According to DHS Management Directive 0007.1, Information
                         Technology Integration And Management:

                                  Functional integration: Is a transformation process that
                                  enhances efficient and effective use of resources by
                                  establishing unified policies and business processes, the
                                  use of shared or centralized services and standards and
                                  automated solutions. Functional integration is a structured
                                  cooperation and collaboration among DHS Components
                                  and LOB [Line of Business] chiefs for the purpose of
                                  achieving functional excellence in support of Departmental
                                  mission and objectives. This is accomplished by
                                  decreasing fragmentation and duplication, providing


3
 Laws that govern DHS' use of personal information include the Homeland Security Act
of 2002, § 222, 6 U.S.C. § 142; the Privacy Act of 1974, 5 U.S.C. § 552a; and the E-
Government Act of 2002, § 208, 44 U.S.C. § 3501 note.
4
 This new server room was established to support CBP employees that were to be transferred from ICE
due to a DHS re-organization.



           Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                                 the Chet Holifield Federal Building

                                               Page 12
                                   enhanced integrated services and increasing efficiency and
                                   quality of management lines of business.

                          CBP did not originally connect their new server equipment to the
                          shared DHS OneNet infrastructure as required by the
                          October 19, 2006, memorandum from the DHS Deputy Secretary.5
                          However, during the course of our audit fieldwork, CBP connected
                          this server to the DHS OneNet and has issued disconnect orders for
                          the unnecessary high-speed telecommunications lines that the
                          DHS OneNet replaces.




5
  In the Memorandum of October 19, 2006, Integration of Component Infrastructures Into the
Infrastructure Transformation Program (ITP), the Deputy Secretary directed the department’s components
to integrate their infrastructure requirements into the department’s Infrastructure Transformation Program,
which includes the DHS OneNet.




            Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                                  the Chet Holifield Federal Building

                                                 Page 13
                           System Accreditation

                           CBP staff at CHFB is currently using three systems. However,
                           only two of the three (66%) are currently authorized to operate.
                           Specifically, CBP has not included one of the systems in the
                           department’s system inventory, Trusted Agent
                           FISMA (TA-FISMA), and has not started risk assessment and
                           accreditation process for this system. 6 See Figure 5 below.

                           System Name            TA-FISMA                Risk            Accreditation
                                                   Identifier          Assessment            Status
                                                                         Status
                          DHS OneNet             CBP-00044-            Completed          Authorized to
                                                 GSS-00044                                  Operate
                          (CBP Steward)


                          Far West Field         CBP-00029-            Completed          Authorized to
                          LAN                    GSS-00029                                  Operate

                          The Human              No Identifier          No Status            No Status
                          Resources File
                          Manager
                          System
                          (RECFIND)

                               Figure 5: Certification and Accreditation Status

                           Additionally, CBP has not updated TA-FISMA to include the new
                           server room at CHFB. Specifically, CBP staff stated that the new
                           server room at CHFB was part of the Far West Field LAN, which
                           is a “type accreditation” system. 7 However, CBP has not prepared
                           the necessary attachments to its documentation annotating CHFB
                           site-specific physical and logical variations related to a server
                           room that CBP had implemented at CHFB.




6
  DHS uses an enterprise management tool, Trusted Agent FISMA, to collect and track data related to all
Plans of Action and Milestones, including self-assessments, and certification and accreditation data.
7
  According to DHS 4300A Handbook, Attachment D –Type Accreditation:
         A type certification/accreditation, however, allows for common security controls across the sites to
         be consolidated and for a single master C&A to be conducted.



            Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                                  the Chet Holifield Federal Building

                                                  Page 14
              According to DHS 4300A Handbook, Attachment D –Type
              Accreditation:

                      To account for unique physical and logical variations at
                      the site level, a description of any differences and the
                      associated risks at each site are documented, and the site-
                      specific documents are incorporated as attachments or
                      appendices to the master C&A package.

              CBP management cannot be assured that IT systems and data are
              properly secured unless the various activities leading to
              accreditation are performed and the Designated Accrediting
              Authority (DAA) has accepted in writing the risks associated with
              operating the systems.

              According to DHS 4300A Handbook:

                      The initial Risk Assessment is updated and revised and
                      becomes the final Risk Assessment as part of the overall
                      accreditation process after the controls are implemented
                      and tested and the results/corrective actions are
                      implemented. Through the development of the final Risk
                      Assessment, the definition of the program residual risk can
                      be determined for the DAA’s acceptance during
                      accreditation.

              We also identified three additional IT resources that CBP had not
              previously included in the DHS’ TA FISMA reporting tool. See
              Figure 6 below.

                                     IT Resource Name
                 Common Drive Home Drive, Human Resources Division
                 OCE (desktop publishing application)
                 CcMail

                      Figure 6: CBP IT Resources Not Included in TA-FISMA

              Staffs from CBP and the office of the DHS CISO are in the process
              of determining if these IT resources should be part of the system
              accreditation process. IT resources that are not included in the
              accreditation process may not be properly secured, increasing the
              risk to CBP systems and data.




Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                      the Chet Holifield Federal Building

                                    Page 15
              According to DHS 4300A Handbook:

                      For operational systems, the DAA makes a risk-based
                      decision either to grant full authorization to operate or
                      deny authorization to operate.

              Following discussions, CBP informed us that they would
              determine whether CBP staff required the Human Resources File
              Manager System (RECFIND) to perform their work. Additionally,
              CBP is in the process of documenting the desktop publishing
              application. Further, CBP is in the process of eliminating the need
              for the identified home drives and cc-Mail. Following these
              actions, CBP will properly certify identified systems.

              Interconnection Security Agreements

              CBP and ICE have a service level agreement for services that ICE
              provides to CBP, including operating servers that support CBP
              applications and users’ data. However, the required ISAs for these
              systems do not exist. Additionally, CBP, as steward of the DHS
              OneNet, should have ISAs with ICE and USCIS for
              telecommunication services.

              By not establishing and maintaining ISAs, CBP may not be aware
              of new threats or vulnerabilities to the confidentiality, integrity,
              and availability of its systems and data.

              According to the DHS 4300A Handbook:

                      Components shall document interconnections with other
                      external networks with an Interconnection Security
                      Agreement (ISA). Interconnections between DHS
                      Components shall require an ISA when there is a difference
                      in the security categorizations for confidentiality, integrity,
                      and availability for the two networks. ISAs shall be signed
                      by both DAAs or by the official designated by the DAA to
                      have signatory authority.

                                                  **********

                      ISAs shall be reissued every three years or whenever any
                      significant changes have been made to any of the




Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                      the Chet Holifield Federal Building

                                    Page 16
                              interconnected system. ISAs shall be reviewed as a part of
                              the annual FISMA self-assessment.

                      Privacy Compliance Activities

                      CBP has completed all required privacy compliance activities for
                      only 1 of 3 (33%) of its systems in use at CHFB. See Figure 7
                      below.

System Name         TA-           Privacy           Privacy            Has the        Applicable
                   FISMA         Threshold          Impact            PIA Been         System of
                   Number         Analysis         Assessment        Submitted          Record
                                   (PTA)             (PIA)           to the DHS          Notice
                                                   Required?           Privacy        According
                                                                      Office for        to DHS
                                                                     Validation         Privacy
                                                                                         Office
DHS OneNet         CBP-         PTA              No PIA              NA               NA
(CBP               00044-       Completed        required
Steward)           GSS-
                   00044

Far West           CBP-         PTA was          *PIA is             No               DHS/All
Field LAN          00029-       reviewed in      required due                         GITAARS
                   GSS-         November         to collection                        71 FR
                   00029        of 2006.         of Personally                        78446
                                                 Identifiable
                                                 Information
                                                 (PII).
**The              None         None             Unknown             No               Justice/
Human                                                                                 INS-034
Resources                                                                             67 FR
File Manager                                                                          56585
System
(RECFIND)
*The PTA for this system was reissued and a PIA is no longer required.
**The Human Resources File Manager System is being retired.


           Figure 7: Status of Privacy Act Related Activities for CBP Systems

                      Specifically, the Privacy Threshold Analysis (PTA) for the DHS
                      OneNet determined that it does not collect personally identifiable
                      information (PII); therefore neither a Privacy Impact



        Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                              the Chet Holifield Federal Building

                                            Page 17
                            Assessment (PIA) nor a System of Records Notice (SORN) is
                            required. While the PTA for the Far West Field LAN determined
                            that PII is collected, the DHS Privacy Office has not yet validated
                            a PIA for this system. Additionally, DHS does not have on file a
                            PTA or a PIA for the Human Resources File Manager
                            System (RECFIND). Further, DHS has not issued an updated
                            SORN to reflect that this system is now operated by DHS and not
                            the Department of Justice. However, use of a legacy SORN is
                            permitted as the Savings Provision of the Homeland Security Act
                            of 2002 allows DHS to rely on legacy SORNs. 8

           Recommendations:
                            We recommend that the CBP CIO take the following actions for
                            CBP activities at CHFB:

                            Recommendation #5: Perform an analysis of the cost and
                            benefits of continuing to operate a separate server room in lieu of
                            sharing a DHS-operated server room.

                            Recommendation #6: Complete the activities required to accredit
                            and authorize IT systems that are in use at CHFB.

                            Recommendation #7: Establish and maintain the required
                            interconnection security agreements.

                            Recommendation #8: Complete Privacy Impact Assessments and
                            publish updated System of Records Notices as needed for systems
                            in use at CHFB.

           Management Comments and OIG Analysis
                            In the comments, except for recommendation #8, CBP concurred
                            with our recommendations and also reported steps taken to resolve
                            these issues. We believe that the actions that CBP has taken and
                            plans to take will resolve the reported issues. These

8
    According to the Homeland Security Act of 2002, Section 1512, Savings Provision:

           (a) COMPLETED ADMINISTRATIVE ACTIONS. —(1) Completed administrative actions of an
           agency shall not be affected by the enactment of this Act or the transfer of such agency to the
           Department, but shall continue in effect according to their terms until amended, modified,
           superseded, terminated, set aside, or revoked in accordance with law by an officer of the United
           States or a court of competent jurisdiction, or by operation of law.



              Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                                    the Chet Holifield Federal Building

                                                   Page 18
              recommendations will be considered resolved but open pending
              verification of reported actions.

              CBP did not concur with recommendation #8. In the comments,
              CBP stated that the PTA for the Far West Field LAN, the first of
              two systems applicable to this recommendation, was updated and
              validated in September 2007, following receipt of our draft report,
              dated August 10, 2007. We believe that the reported privacy
              compliance issue for this system has been resolved. Additionally,
              CBP plans to retire the Human Resource File Management
              System (RECFIND), which is the second system applicable to this
              recommendation. Specifically, CBP stated employees would not
              use the system after October 30, 2007. We also believe that this
              CBP planned action will resolve privacy compliance issues for this
              system. This recommendation will also be considered resolved but
              open pending verification of reported actions.




Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                      the Chet Holifield Federal Building

                                    Page 19
Appendix A
Purpose, Scope, and Methodology


                             This review is part of a program to evaluate, on an ongoing basis,
                             the implementation of DHS technical and information security
                             policies and procedures at DHS sites. The objective of this
                             program is to determine the extent to which critical DHS sites
                             comply with the department’s technical and information security
                             policies and procedures according to DHS Directive 4300A, and its
                             companion document, the DHS 4300A Handbook.

                             We coordinated the implementation of this technical security
                             evaluation program with the DHS CISO. We mutually agreed to
                             the wording for the Rules of Behavior for the technical testing. 9
                             Our entrance and exit conferences were held with CBP officials at
                             the Office of Information Technology in Washington, DC, and by
                             telephone with CHFB OIT officials.

                             Technical evaluations were performed only after the DHS CISO
                             and CBP agreed to our negotiated Rules of Behavior. These
                             technical evaluations included:

                                 •	 Security scans of the servers using various software
                                    packages, and
                                 •	 Scans to determine whether wireless devices were being
                                    used by DHS components.

                             We reviewed applicable DHS and CBP policies and procedures
                             and CBP’s responses to our site surveys and technical
                             questionnaires. Prior to performing our onsite review, we used
                             CBP’s responses to identify occupied space, server rooms, and
                             telecommunications closets. Our onsite review included a physical
                             review of CBP space and interviews with CBP staff. (Our
                             technical review included onsite reviews of server security policies
                             as well as scans for DHS wireless devices operating at CHFB. 10
                             Additionally, we reviewed guidance provided by DHS to the
                             components in the areas of patch management and operating
                             systems.



9
    The Rules of Behavior established the boundaries and schedules for the technical evaluations.
10
     We did not find any wireless devices being used by CBP at CHFB.



               Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                                     the Chet Holifield Federal Building

                                                    Page 20
Appendix A
Purpose, Scope, and Methodology


                      We provided CBP with briefings concerning the results of
                      fieldwork and the information summarized in this report. We
                      conducted this review between February and August 2007.

                      We performed our work according to the Quality Standards for
                      Inspection of the President’s Council on Integrity and Efficiency
                      and pursuant to the Inspector General Act of 1978, as amended.

                      We appreciate the efforts by DHS management and staff to provide
                      the information and access necessary to accomplish this review.
                      Our points of contact for this report are Frank Deffer, Assistant
                      Inspector General for Information Technology, (202) 254-4100,
                      and Roger Dressler, Director for Information Systems and
                      Architectures, (202) 254-5441. Major Office of Inspector General
                      contributors to the review are identified in Appendix C.




        Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                              the Chet Holifield Federal Building

                                            Page 21
Appendix B
Management Comments to the Draft Report




        Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                              the Chet Holifield Federal Building

                                            Page 22
Appendix B
Management Comments to the Draft Report




        Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                              the Chet Holifield Federal Building

                                            Page 23
Appendix B
Management Comments to the Draft Report




        Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                              the Chet Holifield Federal Building

                                            Page 24
Appendix B
Management Comments to the Draft Report




        Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                              the Chet Holifield Federal Building

                                            Page 25
Appendix C
Major Contributors to This Report




                       Roger Dressler, Director, Department of Homeland Security,
                       Information Technology Audits

                       Kevin Burke, Audit Manager, Department of Homeland Security,
                       Information Technology Audits

                       Beverly Dale, Senior Auditor, Department of Homeland Security,
                       Information Technology Audits

                       Domingo Alvarez, Senior Auditor, Department of Homeland
                       Security, Information Technology Audits

                       Matthew Worner, Program Analyst, Department of Homeland
                       Security, Information Technology Audits

                       Basil Marcus Badley, Technical Evaluator, Department of
                       Homeland Security, Information Technology Audits

                       Syrita Morgan, Management and Program Assistant, Department
                       of Homeland Security, Information Technology Audits

                       Samer El-Hage, Management and Program Assistant, Department
                       of Homeland Security, Information Technology Audits

                       Maria Rodriguez, Referencer, Department of Homeland Security,
                       Information Technology Audits




         Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                               the Chet Holifield Federal Building

                                             Page 26
Appendix D
Report Distribution



                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretary
                       Under Secretary, Management
                       Assistant Secretary for Policy
                       Assistant Secretary for Public Affairs
                       Assistant Secretary for Legislative Affairs
                       Chief Information Officer
                       Chief Privacy Officer
                       Deputy CIO
                       Chief Information Security Officer
                       Information Systems Security Manager, CBP
                       CISO, CBP
                       DHS Audit Liaison
                       CBP Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




         Technical Security Evaluation of U.S. Customs and Border Protection Activities at
                               the Chet Holifield Federal Building

                                             Page 27
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
